                       U.S. Department of Agriculture

                          Office of Inspector General
                                      Western Region




             Audit Report

Natural Resources Conservation Service and
           Farm Service Agency:
         Crop Bases on Lands With
         Conservation Easements in
                California




                             Report No. 50099-11-SF
                                        August 2007
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250




REPLY TO
ATTN OF:       50099-11-SF

TO:            Arlen Lancaster
               Chief
               Natural Resources Conservation Service

               Teresa C. Lasseter
               Administrator
               Farm Service Agency

ATTN:          William J. Gradle
               Acting Director, Operations Management and Oversight Division
               Natural Resources Conservation Service

               T. Mike McCann
               Director, Operations Review and Analysis Staff
               Farm Service Agency

FROM:          Robert W. Young         /s/
               Assistant Inspector General
                 for Audit

SUBJECT:       Natural Resources Conservation Service and Farm Service Agency: Crop Bases
               on Lands With Conservation Easements – State of California


This report presents the results of the subject review. Your written responses to the official draft
report are included in their entirety as exhibits with excerpts and the Office of Inspector
General’s (OIG) position incorporated into the relevant sections of the report. Based on the
information in your written responses, we have accepted your management decision on
Recommendations 1, 5, and 10. Please follow your internal agency procedures in forwarding
final action correspondence to the Office of the Chief Financial Officer.

Based on your written responses, management decision has not been reached on
Recommendations 2, 3, 4, 6, 7, 8, and 9. The information needed to reach management decision
on these recommendations is set forth in the OIG Position section after each recommendation. In
accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days showing
the actual or planned timeframe for implementing each recommendation. Please note that the
Arlen Lancaster, et al.                                                                      2


regulation requires a management decision to be reached on all findings and recommendations
within a maximum of 6 months from report issuance, and final action to be taken within 1 year
of each management decision.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
review.
Executive Summary

Results in Brief                        The Natural Resources Conservation Service (NRCS) administers
                                        several conservation easement programs that offer landowners the
                                        opportunity to restore their land to a natural state (i.e., wetlands and
                                        grasslands). This audit reviewed three of these programs in California:
                                        the Wetlands Reserve Program (WRP), the Emergency Watershed
                                        Protection Program (EWP), and the Grassland Reserve Program (GRP).
                                        During fiscal years (FYs) 1999-2005, NRCS allocated about
                                        $1.8 billion for the three programs nationwide, with California
                                        receiving $111,707,364.

                                        When landowners with conservation easements participate in the Farm
                                        Service Agency’s (FSA) farm subsidy programs, FSA must subtract the
                                        easement acres from the farm’s cropland acres. 1 If the resulting total is
                                        less than the farm’s crop bases—historical average acreage of the crops
                                        planted on that land—then FSA must reduce the crop bases and use the
                                        new figure to calculate the subsidy payment. Therefore, NRCS must
                                        coordinate with FSA about the easement so that FSA can appropriately
                                        reduce crop bases and correctly calculate subsidy payments.

                                        In a prior audit, we examined NRCS’ WRP easements recorded from
                                        FYs 1999-2003 (Audit Report No. 10099-3-SF). We determined that
                                        NRCS did not inform FSA of the 17 easements we reviewed in
                                        California. The audit exemplified the need to improve interagency
                                        communication, which OIG identified as a major Departmental
                                        management challenge in 2005 and 2006. To achieve this, we
                                        recommended that NRCS provide a list of all recorded and pending
                                        easements to FSA annually. We reached management decision on these
                                        recommendations based on NRCS’ estimate that it would implement
                                        corrective action by September 2005.

                                        In addition to following up on the WRP easements in the previous
                                        audit, we expanded our scope in this audit to include additional WRP
                                        easements as well as EWP and GRP easements. Our audit objectives
                                        were to: (1) review FSA’s and NRCS’ controls that ensure proper
                                        disposition of crop bases on land subject to conservation easements,
                                        and (2) identify improper farm subsidy payments to producers
                                        participating in conservation easement programs. Our scope was FYs
                                        1999-2005, during which NRCS’ California State office acquired
                                        180 conservation easements.

1
    Throughout the report, we use landowners to refer to both producers and landowners. See the glossary for the technical distinctions between the
    two.

USDA/OIG-A/50099-11-SF                                                                                                                   Page i
                                                            AUDIT REPORT
                                       We found that NRCS was still not communicating easement
                                       information to FSA. As a result, FSA made a number of improper farm
                                       subsidy payments on easement-encumbered lands and was at risk of
                                       making more. To prevent this, we issued a management alert in
                                       September 2005, which informed NRCS and FSA of the continuing
                                       problem and recommended that NRCS immediately provide a list of all
                                       WRP, EWP, and GRP easements to FSA.

                                       In response to the alert, NRCS provided a list of all recorded easements
                                       and amended its policy in the NRCS Conservation Programs Manual –
                                       Wetlands Reserve Program to address the procedures associated with
                                       the transfer or retirement of crop bases on easement-encumbered lands.
                                       FSA agreed to use the easement listings provided by NRCS to
                                       determine the disposition of crop bases and recover any improper
                                       subsidy payments.

                                       In total, we reviewed 58 recorded easements (53 WRP/EWP and
                                       5 GRP) for the 3 programs in 8 California county offices to determine
                                       if crop bases were properly removed. For these easements, we
                                       identified $1,385,937 in improper payments (see exhibit A).

                                        •    In 49 of 53 WRP and EWP easements, NRCS field offices did not
                                             notify FSA when the easements were recorded (Finding 1). 2 This
                                             occurred because the NRCS field offices misinterpreted the manual
                                             requirements, and believed the State office would advise FSA of
                                             the easements and provide the necessary easement information.
                                             Without the easement information, FSA made improper farm
                                             subsidy payments on 33 easements, totaling $1,290,147 (see
                                             exhibit C). 3

                                        •    Unlike EWP and WRP easements, FSA did receive GRP easement
                                             information from NRCS. However, FSA county officials in two
                                             counties did not remove crop bases from three of the five recorded
                                             GRP easements (Finding 2). In one county, the official forgot to
                                             reduce the crop bases from one easement. In the other county, the
                                             official mistakenly believed that one farm’s two GRP easements
                                             had no crop bases. As a result, producers received improper farm
                                             subsidy payments totaling $20,818 for crop bases on easement-
                                             encumbered lands (see exhibit D).


2
    NRCS provided cropping rights letters to FSA for four landowners; while this notified FSA of the easements, the letters did not provide the
    recordation date (in three cases) and the required maps, aerial photos, and other necessary easement information so that FSA could determine
    the precise easement location and acreage.
3
    There were no improper payments on the remaining 20 easements because (1) there was sufficient cropland in 8 cases to support both the
    easement acreage and crop bases, and (2) FSA properly removed crop bases in the 12 cases since the landowners had notified FSA about these
    easements.

USDA/OIG-A/50099-11-SF                                                                                                                Page ii
                                                           AUDIT REPORT
                   In addition, in 2002, the new Farm Bill disallowed farm subsidy
                   payments on easement-encumbered land even with a cropping rights
                   letter. However, FSA’s Direct and Counter-Cyclical Program
                   Handbook was inconsistent with the bill because it continued to allow
                   producers to receive payments with a cropping rights letter (Finding 3).
                   As a result, two landowners were issued improper farm subsidy
                   payments totaling $74,972 (see exhibit D).

                   In conclusion, the inadequate communication between NRCS and FSA
                   regarding conservation easements continued to systemically affect
                   FSA’s ability to avoid making improper payments on easement-
                   encumbered land. Accordingly, NRCS needs to improve its controls to
                   inform FSA of all recorded easements so that FSA can reduce the crop
                   bases from easement lands as appropriate.

Recommendations
In Brief           To correct these issues, we recommend that NRCS:

                    •    Provide training for field office staff in California on their
                         responsibilities for notifying FSA of recorded easements.

                    We recommend that FSA direct its California State office to:

                    •    Remove the crop bases from the 33 WRP and EWP easements and
                         recover $1,290,147 from the landowners.

                    •    Remove the crop bases from the three GRP easements and recover
                         $20,818 from the landowners.

                    •    Recover $74,972 from the two producers that improperly received
                         an additional year of farm subsidy payments.

                    •    Verify that crop bases were appropriately removed from the
                         eight pending easements identified during the audit.

                    We also recommend that FSA instruct all other FSA State offices to:

                    •    Determine if crop bases were properly removed from easement
                         lands and to recover any improper farm subsidy payments. Instruct
                         the State offices to report the results of their determinations to the
                         national office.

                    •    Review the files of any landowners that received cropping rights
                         letters after FY 2001 to: (1) determine if farm subsidy payments

USDA/OIG-A/50099-11-SF                                                                 Page iii
                                  AUDIT REPORT
                         were made in the year the easements were recorded, and
                         (2) recover any improper payments. Instruct the State offices to
                         report the results of their determinations to the national office.

Agency
Response           In NRCS’ written response, dated August 1, 2007, and FSA’s written
                   response, dated July 31, 2007, both agencies generally concurred with
                   the reported findings and recommendations. NRCS’ response is
                   included in exhibit E and FSA’s response is included in exhibit F of
                   this report.

OIG Position       We accept NRCS’ management decision for Recommendation 1 and
                   FSA’s management decisions for Recommendations 5 and 10. The
                   actions needed to reach management decision on Recommendations 2,
                   3, 4, 6, 7, 8, and 9 are provided in the OIG Position section after each
                   recommendation.




USDA/OIG-A/50099-11-SF                                                             Page iv
                                 AUDIT REPORT
Abbreviations Used in This Report

DCP                 Direct and Counter-Cyclical Program
EWP                 Emergency Watershed Program
FSA                 Farm Service Agency
FY                  Fiscal Year
GRP                 Grassland Reserve Program
NRCS                Natural Resources Conservation Service
OCFO/PAD            Office of the Chief Financial Officer/Planning and Accountability
                     Division
OIG                 Office of Inspector General
USDA                United States Department of Agriculture
WRP                 Wetlands Reserve Program




USDA/OIG-A/50099-11-SF                                                              Page v
                                 AUDIT REPORT
Table of Contents
Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................. v

Background and Objectives ......................................................................................................... 1

Findings and Recommendations.................................................................................................. 4

    Section 1 Crop Bases Not Reduced from Easement-Encumbered Lands........................ 4

        Finding 1             NRCS Did Not Notify FSA of WRP and EWP Easements .......................... 4
                                 Recommendation 1, to the NRCS Chief ................................................ 7
                                 Recommendation 2, to the FSA Administrator...................................... 8
                                 Recommendation 3, to the FSA Administrator...................................... 9
                                 Recommendation 4, to the FSA Administrator...................................... 9
                                 Recommendation 5, to the FSA Administrator.................................... 10
        Finding 2             FSA Did Not Remove Crop Bases from GRP Easement-Encumbered
                              Lands ........................................................................................................... 11
                                 Recommendation 6, to the FSA Administrator.................................... 12
                                 Recommendation 7, to the FSA Administrator.................................... 13

    Section 2         Improper Payments Issued Based on Cropping Rights Letters.................... 14

        Finding 3             FSA’s Outdated Guidance Allowed Landowners to Receive Improper
                              Subsidy Payments ....................................................................................... 14
                                  Recommendation 8, to the FSA Administrator.................................... 15
                                  Recommendation 9, to the FSA Administrator.................................... 15
                                  Recommendation 10, to the FSA Administrator.................................. 16

Scope and Methodology.............................................................................................................. 18

Exhibit A – Summary of Monetary Results ............................................................................. 20
Exhibit B – Sites Visited ............................................................................................................. 21
Exhibit C – Lack of NRCS Coordination Caused Improper Payments ................................ 22
Exhibit D – Improper Payments Due to FSA Errors .............................................................. 23
Exhibit E – NRCS Response ...................................................................................................... 24
Exhibit F – FSA Response.......................................................................................................... 25

Glossary of Terms ....................................................................................................................... 31




USDA/OIG-A/50099-11-SF                                                                                                                Page vi
                                                         AUDIT REPORT
Background and Objectives
Background                            The Natural Resources Conservation Service (NRCS) administers several
                                      conservation easement programs that offer landowners the opportunity to
                                      restore their land to a natural state (e.g., wetlands and grasslands). This audit
                                      reviewed three of these programs in California: the Wetlands Reserve
                                      Program (WRP), the Emergency Watershed Protection Program (EWP), and
                                      the Grassland Reserve Program (GRP). 4 During fiscal years (FYs)
                                      1999-2005, our audit’s scope period, NRCS allocated about $1.8 billion for
                                      the three programs nationwide.

                                            •    WRP easements establish long-term conservation and wildlife
                                                 practices and protection. During our scope period, NRCS spent
                                                 $1.5 billion to enroll 1.2 million acres in WRP.

                                            •    EWP easements protect the floodplain, conserve natural values
                                                 including fish and wildlife habitat, and safeguard lives and property
                                                 from floods, drought, and erosion. From 1999-2003, NRCS spent
                                                 $99.5 million to enroll 128,663 acres in EWP. Since 2001, the
                                                 floodplain component of EWP has not been funded.

                                            •    GRP easements protect and restore the grasslands and shrublands.
                                                 Privately-owned grasslands and shrublands cover more than
                                                 525 million acres in the United States. GRP was enacted in 2003 and
                                                 from 2003-2005, NRCS spent $186 million to enroll 909,100 acres in
                                                 GRP.

                                      To participate in one of these easement programs, the landowner must submit
                                      an application at the local NRCS office. The NRCS State office evaluates and
                                      ranks each application. For each selected application, NRCS requests an
                                      appraisal and determines the landowner’s compensation, which includes the
                                      agricultural value of the land. In return, the landowner agrees to take the land
                                      out of production and to forego planting crops and any associated farm
                                      subsidy payments on the easement land.

                                      The Farm Security and Rural Investment Act of 2002 (2002 Farm Bill)
                                      established the Direct and Counter-Cyclical Program (DCP), which is
                                      administered by FSA and is commonly known as the farm subsidy program. 5
                                      FSA calculates farm subsidy payments using crop bases, payment yields, and
                                      rates. A crop base is the historical average of the acreage planted on a farm,


4
  NRCS administers WRP and EWP, but both NRCS and FSA administer GRP. For GRP, NRCS has the lead responsibility on regulatory matters,
  technical issues, and easement administration, and FSA has the lead responsibility for financial activities. The agencies are to consult on regulatory and
  policy matters pertaining to easements.
5
  From FYs 1996-2001, the farm subsidy program was known as “Production Flexibility Contract and Market Loss Assistance.”

USDA/OIG-A/50099-11-SF                                                                                                                           Page 1
                                                               AUDIT REPORT
                                        which cannot exceed the total acres suitable for crop production
                                        (i.e., cropland acres).

                                        When an easement is placed on a farm, the easement acres are subtracted
                                        from the cropland acres. If the cropland acres are less than the crop bases
                                        after the easement acres have been subtracted, then the crop bases must be
                                        reduced to match the cropland acres. Accordingly, FSA’s subsidy calculation
                                        must change to reflect the new, lower amount of crop bases. On the other
                                        hand, if the cropland acres still exceed the crop bases after the easement acres
                                        have been subtracted, then the crop bases do not have to be reduced and
                                        FSA’s subsidy calculation remains the same.

                                        To receive farm subsidy payments, the 2002 Farm Bill requires
                                        landowners/producers annually to certify the crops planted on the acreage
                                        report form and to sign a DCP contract. 6 They must certify the accuracy of
                                        the information on the contract and comply with the regulations governing
                                        the program.

                                        California

                                        By October 2005, the number of acres enrolled in the three easement
                                        programs totaled nearly 2.7 million acres nationwide. California had
                                        131,315 acres, representing about 5 percent of the total acres in these
                                        programs. In 2005, program funds totaled about $319 million, with California
                                        receiving over $16 million.

                                        NRCS’ policy makes the State conservationist responsible for administering
                                        easement programs. In California, the State conservationist delegated this
                                        responsibility to the State wetlands biologist. The biologist’s oversight
                                        responsibilities included monitoring the enrolled lands, maintaining the
                                        official program records and supporting documents, and issuing cropping
                                        rights letters. These letters inform affected landowners of the right to plant
                                        and harvest a spring crop or to harvest crops that were planted on the land
                                        before the easement was recorded.

                                        Prior to 2002, if a landowner received a cropping rights letter from NRCS,
                                        FSA allowed farm subsidy payments to be made on easement lands in the FY
                                        the easement was filed. With the implementation of the 2002 Farm Bill,
                                        landowners can no longer receive farm subsidy payments on easement-
                                        encumbered land, even with a cropping rights letter.

                                        Figure 1 shows the locations of all WRP easements, the most common
                                        easement program in California, in FY 2003.


6
    Throughout the report, we use landowners to refer to both producers and landowners. See the glossary for the technical distinctions between the two.

USDA/OIG-A/50099-11-SF                                                                                                                            Page 2
                                                                 AUDIT REPORT
                          Figure 1: Locations of WRP Easements in California




Objectives         The audit objectives were to: (1) review FSA and NRCS controls that ensure
                   proper disposition of crop bases on land subject to conservation easements,
                   and (2) identify improper farm subsidy payments to producers participating
                   in conservation easement programs.




USDA/OIG-A/50099-11-SF                                                                 Page 3
                                   AUDIT REPORT
Findings and Recommendations
Section 1           Crop Bases Not Reduced from Easement-Encumbered Lands

                                     In a prior audit, we determined that NRCS did not communicate with FSA to
                                     inform it of recorded WRP easements, and we recommended that NRCS
                                     provide a list of previous easements to FSA as well as future easement
                                     information annually. In this audit, we found the same communication
                                     problem (see Finding 1). Accordingly, we issued a management alert in
                                     September 2005, which again brought this issue to NRCS’ and FSA’s
                                     attention.

                                     In response to the alert, NRCS provided a list of all easements and amended
                                     its policy in the NRCS Conservation Programs Manual – Wetlands Reserve
                                     Program to address the procedures associated with the transfer or retirement
                                     of crop base on easement-encumbered lands. FSA agreed to use the
                                     information provided by NRCS to determine the disposition of crop bases
                                     and recover any improper payments.

                                     Although NRCS had notified FSA about recorded GRP easements, we
                                     identified three easements where FSA did not properly reduce the crop bases,
                                     which also resulted in improper payments to landowners (see Finding 2).


Finding 1                            NRCS Did Not Notify FSA of WRP and EWP Easements

                                     In 49 of 53 WRP and EWP easements we reviewed, NRCS field offices did
                                     not notify FSA when the easements were recorded, which allowed easement-
                                     encumbered lands to participate in FSA’s farm subsidy program. 7 This
                                     occurred because the NRCS field offices misinterpreted the manual
                                     requirements, and believed the State office would advise FSA about the
                                     easements and provide the necessary easement information to FSA. Without
                                     the easement information, FSA made improper farm subsidy payments
                                     during FYs 1999–2005 on 33 easements, totaling $1,290,147 (see exhibit
                                     C). 8

                                     The WRP manual’s general provisions make NRCS’ field offices responsible
                                     to “provide [the] FSA county office with maps and acreage of recorded
                                     WRP easements.” 9 Another subpart states, “advise the local FSA office of
                                     the date that the easement was recorded and provide a graphic representation

7
  NRCS provided cropping rights letters to FSA for four landowners; while this notified FSA of the easements, the letters did not provide the recordation
  date (in three cases) and the required maps, aerial photos, and other necessary easement information so that FSA could determine the precise easement
  location and acreage.
8
  There were no improper payments on the remaining 20 easements because (1) there was sufficient cropland in 8 cases to support both the easement
   acreage and crop bases, and (2) FSA properly removed crop bases in the 12 cases since the landowners had notified FSA about these easements.
9
  NRCS’ Conservation Programs Manual – Wetlands Reserve Program, sec. 514.02(e) (May 2002).

USDA/OIG-A/50099-11-SF                                                                                                                         Page 4
                                                              AUDIT REPORT
                                     or aerial photo detailing the easement location and acreage.” 10 However, this
                                     subpart did not specify whether NRCS field offices or the State office should
                                     advise FSA, causing confusion at the field offices. NRCS’ other easement
                                     guidance in the EWP manual referred to the WRP manual for detailed
                                     procedures for administrating EWP floodplain easements.

                                     We interviewed both NRCS State and field office staff in the
                                     eight counties to determine if they understood the requirements for notifying
                                     FSA about easements. The State wetlands biologist, who is responsible for
                                     administering the easement programs, stated that coordination with FSA is
                                     the field offices’ responsibility. However, based on the wording in the two
                                     WRP manual sections, NRCS field offices mistakenly thought the State
                                     office was responsible for notifying FSA. When we discussed the issue with
                                     the national office, officials believed the manuals were clear and that the
                                     California field office staff will receive training on their responsibilities.

                                     Because NRCS did not notify FSA of recorded WRP or EWP easements,
                                     FSA did not remove crop bases from easement-encumbered lands for
                                     33 of the 53 recorded easements we reviewed, and landowners received
                                     improper farm subsidy payments totaling $1,290,147. We discussed each of
                                     these easements with FSA’s State office staff who concurred with our
                                     analysis and told us that they would take corrective action.

                                           An Example of How Inadequate Communication Led to an Improper
                                           Subsidy Payment

                                           In 1999, a landowner had a farm with 2,211.8 acres of crop base and
                                           2,959 acres of cropland. Crop bases can be less than or equal to cropland
                                           but if crop bases exceed cropland acres, then FSA must reduce the crop
                                           bases accordingly. Since the landowner’s crop bases were less than his
                                           cropland, FSA correctly calculated the landowner’s farm subsidy
                                           payments using his 2,211.8 acres of crop base. Then, in 2000, NRCS
                                           recorded a 1,534-acre WRP easement on the farm without informing
                                           FSA.

                                           If FSA had known about the easement, it would have had to subtract the
                                           easement acres (1,534) from the cropland acres (2,959), leaving the
                                           landowner with 1,425 cropland acres. Since crop bases cannot exceed
                                           cropland, FSA would have then had to reduce the crop bases (2,211.8) to
                                           equal the cropland (1,425)—a 786.8-acre reduction. Lacking the
                                           easement information, FSA continued to calculate the landowner’s




10
     NRCS’ Conservation Programs Manual – Wetlands Reserve Program, sec. 514.34(d) (May 2002).

USDA/OIG-A/50099-11-SF                                                                                       Page 5
                                                           AUDIT REPORT
                                               subsidy payment using the original crop bases (2,211.8) instead of the
                                               reduced figure (1,425). As a result, from FYs 2000-2005, FSA overpaid
                                               the landowner a total of $93,488.

                                         In a prior audit, we examined NRCS’ WRP easements recorded from
                                         FYs 1999-2003 (Audit Report No. 10099-3-SF). We determined that NRCS
                                         did not inform FSA of the 17 recorded easements we reviewed in California.
                                         To achieve this, we recommended that NRCS provide a list of all recorded
                                         and pending easements to FSA annually. We reached management decision
                                         on these recommendations based on NRCS’ estimate that it would implement
                                         corrective action by September 2005.

                                         In our current audit, we found that NRCS was still not communicating
                                         easement information to FSA. Consequently, FSA had made a number of
                                         improper farm subsidy payments on easement-encumbered lands and was at
                                         risk of making more. To prevent this, we issued a management alert, which
                                         informed NRCS and FSA of the continuing problem and recommended that
                                         NRCS provide a list of all WRP, EWP, and GRP easements to FSA.

                                         In response to the alert, NRCS’ national office issued a directive dated
                                         September 29, 2005, which required State conservationists to provide
                                         easement information to FSA’s State offices by October 14, 2005. NRCS also
                                         agreed to develop more comprehensive procedures to address the transfer or
                                         retirement of crop bases on easement-encumbered lands. FSA agreed to use
                                         this information to determine the disposition of crop bases and recover any
                                         improper payments. In February 2006, NRCS issued a national office
                                         directive to modify its WRP and EWP manuals to require landowners to
                                         complete a form CCC-505, which is used by FSA county offices to retire
                                         crop bases, upon enrollment of the land into an easement program. 11

                                         Pending Easements

                                         FSA was also at risk of making improper farm subsidy payments for
                                         8 of 10 WRP easements, which were pending at the conclusion of fieldwork
                                         (see table 1). 12 We informed the FSA State office staff about these pending
                                         easements who said they would work with their counties to ensure crop bases
                                         are properly removed from the easement land once these easements are
                                         recorded.




11
     NRCS’ Circ. 31, pt. 514, Appraisal Methodology for Wetlands Reserve Program Acquisitions (February 22, 2006).
12
     In 2 of the 10 pending easements, the land had sufficient cropland to support both the easement acres and the crop bases.

USDA/OIG-A/50099-11-SF                                                                                                           Page 6
                                                                  AUDIT REPORT
                                        Table 1: The 10 Pending Easements by County
                                            Crop Bases Should    Sufficient DCP
                               County
                                              Be Removed        Cropland on Tract   Total Easements
                                                   (a)                 (b)              (a)+(b)

                            Yolo                   1                   1                  2

                            Solano                 3                    -                 3

                            Sutter                 1                   1                  2

                            Colusa                 1                    -                 1

                           Stanislaus               -                   -                  -

                            Tulare                  -                   -                  -

                            Fresno                  -                   -                  -

                            Kern                   2                    -                 2

                           TOTAL                   8                   2                  10



                   To improve its easement communication procedures, NRCS should provide
                   training to its field offices regarding their responsibilities for notifying FSA
                   about easements. FSA’s State office should also recover the $1,290,147 in
                   improper payments and ensure that crop bases are removed from the
                   33 recorded easements and the 8 pending easements upon recordation. Since
                   we found a high error rate in the 8 counties we reviewed—62 percent or 33 of
                   53—FSA should require all other county offices in California with WRP and
                   EWP easements to determine if crop bases were properly reduced from the
                   base acreage for the farms and to recover any improper farm subsidy
                   payments. In addition, the FSA national office should instruct all other FSA
                   State offices to determine if crop bases were properly removed from the
                   easement lands and to recover any improper farm subsidy payments.

Recommendation 1, to the NRCS Chief

                   Provide training for field office staff in California on their responsibilities for
                   notifying FSA of recorded easements.

                   NRCS Response

                   The Easement Programs Division (EPD) is currently conducting monthly
                   programmatic and administrative training via teleconference with NRCS
                   State and field office staff in California and other States regarding their
                   responsibilities of notifying FSA of recorded easements. EPD also has
                   scheduled a program review and field office training in California for fiscal
                   year 2008. Estimated completion date is January 2008.

                   OIG Position

                   We accept NRCS’ management decision for this recommendation.


USDA/OIG-A/50099-11-SF                                                                                Page 7
                                        AUDIT REPORT
Recommendation 2, to the FSA Administrator

                   Direct FSA’s California State office to remove crop bases from the
                   33 easement-encumbered lands, and to recover $1,290,147 in improper
                   payments.

                   FSA Response

                   According to staff in the California State FSA office, NRCS has not yet
                   provided all information regarding DCP base acreage retired through the
                   WRP easements. Although FSA can proceed by ensuring that DCP program
                   benefits are collected on any farm where the acreage enrolled in WRP is
                   found to be on DCP base acres, as required by the Farm Security and Rural
                   Investment Act of 2002 (Pub. L. 107-171), without definitive information
                   regarding base acreage retired through the WRP agreement, the reduction
                   may be understated.

                   Therefore, followup action is required by NRCS to provide information
                   regarding any base acres that were retired through the applicable appraisals.
                   Once all base reductions are identified, the California State FSA office and
                   affected county offices will reduce the base acreage to meet all statutory
                   requirements and initiate debt collection measures, where applicable.
                   Depending on the nature of each applicable case, FSA may pursue equitable
                   relief as authorized by the Farm Security and Rural Investment Act of 2002
                   (Pub. L. 107-171).

                   FSA will require action to be completed by the California State FSA office
                   and affected county offices within 120 days following receipt of all necessary
                   documentation from NRCS.

                   OIG Position

                   We agree with FSA’s corrective action. Since FSA’s response to the audit,
                   the California State FSA and NRCS officials are working together to ensure
                   that NRCS provides all the information FSA needs to properly reduce base
                   acreage. To achieve management decision, FSA needs to provide us with
                   evidence to support the base acreage reductions, copies of the bills for
                   collection, and documentation that accounts receivable for $1,290,147 were
                   established for the applicable producers.




USDA/OIG-A/50099-11-SF                                                                    Page 8
                                   AUDIT REPORT
Recommendation 3, to the FSA Administrator

                   Direct the California FSA State office to verify whether the crop bases were
                   appropriately removed for the eight pending easements identified during the
                   audit.

                   FSA Response

                   FSA is not required to reduce DCP base acreage until the easement is filed or
                   recorded. As such, action would not be applicable by FSA regarding pending
                   easements.

                   NRCS has agreed to notify FSA immediately after the easement is filed so
                   the appropriate action to reduce DCP base acreage can be taken. NRCS has
                   further provided that its offices will provide FSA with a form CCC-505 if
                   DCP base acreage was retired through the easement. The DCP base reduction
                   should only be completed following notification by NRCS that the easement
                   has been filed and the form CCC-505 and other applicable documentation
                   regarding the easement have been provided to the applicable FSA office.

                   Therefore, it is recommended that followup action be taken by NRCS to
                   ensure that FSA was properly notified when the eight pending easements
                   were filed and to ensure that the required documentation was provided to the
                   applicable FSA office. FSA will then take action, if applicable, to ensure the
                   DCP base acreage has been reduced as required by applicable statutes.

                   OIG Position

                   Our followup with the California State NRCS office disclosed that five of the
                   eight pending easements have been recorded, one easement is still pending,
                   and landowners of the two remaining easements withdrew from the program.

                   We agree with FSA’s corrective action. Since FSA’s response to the audit,
                   the California State FSA and NRCS officials are working together to ensure
                   that NRCS provides all the information FSA needs to properly reduce base
                   acreage. To achieve management decision, for the five recorded easements,
                   FSA needs to provide us with evidence that the crop bases were appropriately
                   removed. We do not expect FSA to track the one remaining pending
                   easement. FSA should, in the normal course of business, ensure the proper
                   disposition of the crop bases once NRCS informs it that an easement has been
                   recorded.

Recommendation 4, to the FSA Administrator

                   Instruct the California FSA State office to require all other county offices
                   with WRP and EWP easements to determine if crop bases were properly
USDA/OIG-A/50099-11-SF                                                                    Page 9
                                   AUDIT REPORT
                   removed from the easement land and to recover any improper farm subsidy
                   payments. Instruct the State office to report the results of the determinations
                   to the national office.

                   FSA Response

                   The California State FSA office provided the information that was received
                   from NRCS regarding all WRP and EWP easements to applicable county
                   offices in September 2005. FSA district directors coordinated with affected
                   county offices to ensure the base acreage was reduced as required by the
                   Farm Security and Rural Investment Act of 2002 (Pub. L. 107-171).

                   However, as specified in Recommendation 2 of this finding, if NRCS has not
                   provided information on the number of acres retired through the easement,
                   FSA can only proceed by ensuring that DCP program benefits are collected
                   on any farm where the acreage enrolled in WRP is found to be on DCP base
                   acres as required by the Farm Security and Rural Investment Act of 2002
                   (Pub. L. 107-171). Required reduction due to base acreage retired through the
                   easement would not be recorded and would continue to result in improper
                   payments unless NRCS has provided this information to the applicable FSA
                   office.

                   Therefore, it is recommended that NRCS certify that all base acreage retired
                   through the easements has been provided to FSA if the easements have been
                   filed.

                   Once it is determined that the easements have been filed and the necessary
                   documentation has been provided to FSA, the FSA national office will
                   require the California State FSA office to provide a formal report within
                   120 days regarding the results of the county office action taken to reduce
                   DCP base acreage and action taken regarding any improper payments that
                   resulted due to the delay in the base reduction.

                   OIG Position

                   We agree with FSA’s corrective action. To achieve management decision,
                   FSA needs to provide us with evidence that the FSA national office has, or
                   will by a specified date, required the California State FSA office to provide a
                   formal report within 120 days regarding the results of the county office action
                   taken to reduce DCP base acreage and action taken regarding any improper
                   payments that resulted due to the delay in the base reduction.

Recommendation 5, to the FSA Administrator

                   Follow up with all other FSA State offices to determine if crop bases were
                   properly removed from the easement lands and to recover any improper farm
USDA/OIG-A/50099-11-SF                                                                   Page 10
                                   AUDIT REPORT
                                      subsidy payments. Instruct the State offices to report the results of the
                                      determinations to the national office.

                                      FSA Response

                                      The FSA national office will issue a directive by August 31, 2007, requiring
                                      all State FSA offices to certify that DCP base acreage has been reduced
                                      properly based on all easement information provided by NRCS.

                                      OIG Position

                                      We accept FSA’s management decision for this recommendation.




Finding 2                             FSA Did Not Remove Crop Bases from GRP Easement-
                                      Encumbered Lands

                                      Unlike EWP and WRP easements (Finding 1), FSA did receive
                                      GRP easement information from NRCS. However, FSA county officials in
                                      two counties did not remove crop bases from three of five GRP easements. In
                                      one county, the official forgot to reduce the crop bases from one easement. In
                                      the other county, the official mistakenly believed that one farm’s two GRP
                                      easements had no crop bases. As a result, producers received improper farm
                                      subsidy payments totaling $20,818 (see exhibit D).

                                      FSA’s national office directive GRP-9 states, “County offices shall follow
                                      procedures in 1-DCP [Direct and Counter-Cyclical Program Handbook] to
                                      ensure that GRP acres do not receive both GRP and DCP payments
                                      beginning FY 2005. . . . Producers may remove [reduce] their GRP contract
                                      acres to receive DCP payments without paying liquidated damages.
                                      Producers that elect not to reduce GRP contract acres must remove DCP base
                                      acres according to 1-DCP.” 13

                                      In one county office, the program technician was aware of crop bases on a
                                      GRP easement but forgot to remove them from the easement. In the other
                                      county office, the county executive director mistakenly believed the
                                      GRP acres on a farm with two easements were on non-cropland acres. Since
                                      non-cropland acres cannot have crop bases, the director thought there were
                                      no crop bases to remove from the easement. (See table 2 for more details
                                      regarding the five GRP easements.)



13
     FSA Notice GRP-9, Grassland Reserve Program Direct and Counter-Cyclical Program (DCP) Policy (April 14, 2005).

USDA/OIG-A/50099-11-SF                                                                                                Page 11
                                                             AUDIT REPORT
                                           Table 2: The Five GRP Easements by County
                                                                                                 Improper
                                  Crop bases    Crop Bases Were   Sufficient DCP
                                  Were Not         Properly        Cropland on       Total       Payments
                         County    Removed         Removed             Tract       Easements     Based on
                                     (a)              (b)              (c)         (a)+(b)+(c)   Column A

                      Yolo            1               1                 1              3          $8,472

                      Colusa          2                -                -              2          $12,346

                     TOTAL            3               1                 1              5          $20,818




                   The FSA State office should recover $20,818 in improper subsidy payments
                   for the GRP easements and ensure proper disposition of crop bases on the
                   three recorded easements. Since only two of the eight counties we reviewed
                   had GRP easements and we found errors in both counties, the FSA State
                   office should require all other county offices with GRP easements to
                   determine if crop bases were properly removed from the easement-
                   encumbered land and recover any improper farm subsidy payments.

Recommendation 6, to the FSA Administrator

                   Direct the California FSA State office to remove crop bases from
                   GRP easement-encumbered lands, and to recover $20,818 in improper
                   payments from producers who received farm subsidy payments.

                   FSA Response

                   The California State FSA office will take action to ensure base acreage has
                   been reduced as required and to ensure that debt collection measures are
                   initiated, where applicable.

                   The FSA national office will require the California State FSA office to
                   provide a formal report within 120 days regarding the results of the county
                   office action taken to reduce DCP base acreage and action taken regarding
                   any improper payments that resulted due to the delay in the base reduction.

                   OIG Position

                   We agree with FSA’s corrective action. To achieve management decision,
                   FSA needs to provide us with evidence to support the base acreage
                   reductions, copies of the bills for collection, and documentation that accounts
                   receivable for $20,818 were established for the applicable producers.




USDA/OIG-A/50099-11-SF                                                                              Page 12
                                     AUDIT REPORT
Recommendation 7, to the FSA Administrator

                   Instruct the California FSA State office to require all other county offices
                   with GRP easements to: (1) determine if crop bases were properly removed
                   from the easement land, and (2) recover any improper farm subsidy
                   payments. Instruct the State office to report the results of the determinations
                   to FSA’s national office.

                   FSA Response

                   The California State FSA office has been working with affected county
                   offices to ensure the provisions regarding DCP base acreage reductions were
                   implemented.

                   The FSA national office will require the California State FSA office to
                   provide a formal report within 120 days regarding the results of the county
                   office action taken to reduce DCP base acreage and action taken regarding
                   any improper payments that resulted due to the delay in the base reduction.

                   OIG Position

                   We agree with FSA’s corrective action. To achieve management decision,
                   FSA needs to provide us with evidence that the FSA national office has, or
                   will by a specified date, required the California State FSA office to provide a
                   formal report within 120 days regarding the results of the county office action
                   taken to reduce DCP base acreage and action taken regarding any improper
                   payments that resulted due to the delay in the base reduction.




USDA/OIG-A/50099-11-SF                                                                   Page 13
                                   AUDIT REPORT
Section 2            Improper Payments Issued Based on Cropping Rights Letters

Finding 3                            FSA’s Outdated Guidance Allowed Landowners to Receive
                                     Improper Subsidy Payments

                                     FSA improperly allowed landowners who had cropping rights letters to
                                     receive farm subsidy payments in the fiscal year the easement was recorded.
                                     This occurred because FSA’s Direct and Counter-Cyclical Program
                                     Handbook (1-DCP) was inconsistent with the 2002 Farm Bill—the handbook
                                     allowed landowners to receive payments but the bill disallowed this practice.
                                     As a result, two landowners were issued improper farm subsidy payments
                                     totaling $74,972 (see exhibit D).

                                     Cropping rights letters issued by NRCS allow landowners to plant a spring
                                     crop (if the easement closed after October 1) or to harvest crops that were
                                     planted on the land prior to the date the easement was recorded. Prior to
                                     2002, landowners that received a cropping rights letter from NRCS were
                                     allowed to receive farm subsidy payments on easement-encumbered land in
                                     the year the easement was recorded. However, beginning with FY 2002, the
                                     Farm Bill prohibited landowners from receiving these payments on lands
                                     enrolled in conservation easement programs. 14

                                     Between FYs 1999-2005, NRCS’ California State office issued 11 cropping
                                     rights letters to inform landowners of these rights. Of the 11 landowners who
                                     received these letters, 7 received letters subsequent to the 2002 Farm Bill. We
                                     reviewed the seven letters and determined that FSA made improper payments
                                     to two landowners. 15 Although the 2002 Farm Bill prohibited subsidy
                                     payments if the land was enrolled in WRP or EWP, FSA’s handbook
                                     incorrectly stated that with written documentation (i.e., a cropping rights
                                     letter) from NRCS, the landowner could receive a farm subsidy payment in
                                     the year the easement was recorded. 16

                                     An FSA national office official believed that the incorrect language was
                                     removed from the handbook after the 2002 Farm Bill was enacted and could
                                     not explain how it reappeared. However, our review of the archived
                                     handbook amendments 17 on the FSA website disclosed that the language had
                                     never been removed from the handbook after enactment of the 2002 Farm
                                     Bill. Based on this information, the national office issued an amendment in
                                     May 2006 to correct the error. 18 However, we also found that FSA’s Farm,
                                     Tract and Crop Data Handbook (3-CM) still allows WRP and EWP
14
   Public Law 107-171, sec. 1101(g)(2)(B) and sec. 1108 (May 13, 2002).
15
   Of the remaining five landowners, two did not receive subsidy payments and three had invalid letters because they were dated the fiscal year before the
    easement was recorded.
16
   FSA’s 1-DCP Handbook, Direct and Counter-Cyclical Program, Amendment 27, par. 426 F (August 24, 2004).
17
   FSA’s 1-DCP Handbook, Direct and Counter-Cyclical Program, Amendments 3–27, par. 426 F (October 18, 2002 to August 24, 2004).
18
   FSA’s 1-DCP Handbook Direct and Counter-Cyclical Program, Amendment 36, par. 426 F (May 2, 2006).

USDA/OIG-A/50099-11-SF                                                                                                                        Page 14
                                                              AUDIT REPORT
                                     easements to be eligible for farm subsidy payments in the year the easement
                                     is filed. 19

                                     To correct these issues, FSA should revise its procedures to remove any
                                     reference that would allow easement-encumbered lands to participate in the
                                     farm subsidy program. FSA should also recover $74,972 from the
                                     two producers that improperly received an additional year of subsidy
                                     payments. In addition, FSA should instruct all other State executive directors
                                     to identify all easements recorded after FY 2001 to determine if improper
                                     payments were made in the year the easements were recorded, and effect
                                     recovery accordingly.

Recommendation 8, to the FSA Administrator

                                     Modify the Handbook 3-CM to remove the reference that cropland enrolled
                                     in WRP or EWP is eligible for farm subsidy payments.

                                     FSA Response

                                     Revision 4 to Handbook 3-CM was issued on May 31, 2006, in which
                                     subparagraph 26A was amended to specify that acreage enrolled in WRP
                                     shall be classified as WRP acreage during the fiscal year in which the
                                     easement is filed.

                                     OIG Position

                                     We agree with FSA’s corrective action. To achieve management decision,
                                     FSA needs to further revise its Handbook 3-CM to remove the reference that
                                     cropland enrolled in EWP easement is eligible for farm subsidy payments in
                                     the FY the easement is filed.

Recommendation 9, to the FSA Administrator

                                     Direct the California FSA State office to recover $74,972 from the
                                     two producers that improperly received an additional year of farm subsidy
                                     payments.

                                     FSA Response

                                     On May 2, 2006, FSA issued Amendment 36 to Handbook 1-DCP which
                                     removed the exception erroneously included in program policy that allowed
                                     producers to retain DCP payments if NRCS authorized cropping rights on
                                     WRP easements. Handbook 1-DCP, Amendment 38, was issued on


19
     FSA’s 3-CM Handbook, Farm, Tract and Crop Data, Amendment 15, par. 27A, Rev. 3, (May 13, 2005).

USDA/OIG-A/50099-11-SF                                                                                    Page 15
                                                            AUDIT REPORT
                   August 4, 2006, to further clarify action that should taken by FSA State and
                   county offices.

                   The California State FSA office will be instructed to review the applicable
                   cases by August 31, 2007, to ensure debt collection measures, where
                   applicable, were initiated. Depending on each applicable situation, FSA may
                   pursue equitable relief as authorized by the Farm Security and Rural
                   Investment Act of 2002 (Pub. L. 107-171).

                   OIG Position

                   We agree with FSA’s corrective action. To achieve management decision,
                   FSA needs to provide us with copies of the bills for collection, and
                   documentation that accounts receivable for $74,972 were established for the
                   two producers.

Recommendation 10, to the FSA Administrator

                   Instruct all FSA State executive directors to review the files of any
                   landowners that received cropping rights letters after FY 2001 to:
                   (1) determine if farm subsidy payments were made in the year the easements
                   were recorded, and (2) recover any improper payments. Instruct the State
                   offices to report the results of the determinations to the national office.

                   FSA Response

                   As specified in the response to Recommendation 9, on May 2, 2006, FSA
                   removed the exception erroneously included in program policy which
                   allowed producers to receive DCP payments if NRCS authorized cropping
                   rights on WRP easements.

                   Under those guidelines, FSA offices were instructed to immediately reduce
                   base acreage for the year the easement was filed and future years regardless
                   of whether NRCS authorized cropping on the easement. For 2005 and prior
                   contract periods, FSA offices were instructed to review existing guidelines to
                   determine whether any debts created as a result of the reduced base acreage
                   could be justified under the finality rule provisions as authorized by the Farm
                   Security and Rural Investment Act of 2002 (Pub. L. 107-171).

                   Although the OIG findings indicate that the exception was included in
                   Handbook 1-DCP from 2002 forward, our review indicates there was a time
                   period where the procedure regarding cropping rights on restrictive
                   easements clearly indicated that exception was not applicable for WRP.
                   However, FSA agrees that handbook procedure did not meet the restrictions
                   of the Farm Security and Rural Investment Act of 2002 (Pub. L. 107-171) for
                   all contract periods from 2002 forward.
USDA/OIG-A/50099-11-SF                                                                   Page 16
                                   AUDIT REPORT
                   Therefore, the FSA national office will issue a directive by August 31, 2007,
                   requiring all State offices to certify that DCP base acreage has been reduced
                   properly based on all easement information provided by NRCS as required by
                   current procedure for 2002 and future contract periods. Depending on the
                   nature of each applicable case, equitable relief as authorized by the Farm
                   Security and Rural Investment Act of 2002 (Pub. L. 107-171) may be
                   pursued or the finality rule may be applied.

                   OIG Position

                   We accept FSA’s management decision for this recommendation.




USDA/OIG-A/50099-11-SF                                                                  Page 17
                                   AUDIT REPORT
Scope and Methodology
                                     Our audit reviewed NRCS’ and FSA’s controls in California over the
                                     disposition of crop bases on lands acquired through WRP, EWP, and GRP
                                     easements. We selected California because we identified cases in our prior
                                     audit where easement-encumbered land with crop bases participated
                                     improperly in FSA’s farm subsidy program. 20

                                     We performed fieldwork at NRCS’ and FSA’s national offices in
                                     Washington, D.C.; the Commodity Credit Corporation’s information
                                     technology service division in Kansas City, Missouri; the California NRCS
                                     and FSA State offices in Davis, California; eight NRCS field offices; and
                                     eight FSA county offices. See exhibit B for a complete listing of sites visited.
                                     We performed audit fieldwork from May 2005 through April 2006.

                                     Nationwide, NRCS spent about $1.8 billion to acquire WRP, EWP, and GRP
                                     easements during FYs 1999-2005. In California, the NRCS State office
                                     acquired 180 WRP, EWP, and GRP conservation easements for
                                     $107,437,164 during these years: 141 WRP easements for $96,310,161,
                                     22 EWP easements for $9,162,896, and 17 GRP easements for $1,964,107.
                                     We grouped the easements by county and judgmentally selected the eight
                                     counties with the most easements and, in general, the highest acquisition
                                     costs. There were a total of 100 recorded and pending easements in these
                                     counties.

                                     From the 100 easements, we excluded 32 for the following reasons:

                                      •    25 because there were no crop bases on the easement lands;
                                      •    4 because the easements were transferred to other counties outside of our
                                           selected counties; and
                                      •    3 because FSA had taken corrective action on the easements based on a
                                           recommendation in our prior WRP audit.

                                     The remaining 68 easements (our sample) consisted of 58 recorded and
                                     10 pending easements, which represented 38 percent of the easements in
                                     California and over 45 percent of the easement costs.

                                     Cropping rights letters allow producers to plant and harvest crops for another
                                     year after the easements are recorded. Since the letters could also make
                                     landowners eligible for farm subsidy payments prior to the 2002 Farm Bill,


20
     OIG Audit Report No. 10099-3-SF, “Wetlands Reserve Program – Compensation of Easements” (August 2005).


USDA/OIG-A/50099-11-SF                                                                                        Page 18
                                                            AUDIT REPORT
                   we reviewed all 11 letters issued to landowners Statewide by NRCS’ State
                   office since FY 1999.

                   To accomplish our audit, we performed the following procedures:

                    •    Reviewed pertinent laws and regulations. We reviewed all criteria
                         governing conservation easements and the farm subsidy program. We
                         also reviewed the policies established for the proper treatment of crop
                         bases on lands subject to conservation easements.

                   •     Interviewed NRCS and FSA personnel. We interviewed NRCS and FSA
                         officials at the national, State, and local offices to obtain information
                         about easement and farm programs. We also discussed management
                         controls over the WRP, EWP, and GRP easement programs, and
                         assessed the coordination between the two agencies in handling crop
                         bases on lands enrolled in these easement programs.

                   •     Reviewed easement files at NRCS offices. We reviewed the WRP, EWP,
                         and GRP easement files in each selected county. At the field offices, we
                         obtained maps, aerial photographs, and pertinent easement information
                         to determine the location and acreage of each sample easement.

                   •     Reviewed farm records at FSA offices. We reviewed FSA’s maps and
                         corresponding farm records for each of the sample easements to
                         determine the amount of crop bases on the easement-encumbered lands.

                   •     Analyzed the treatment of crop bases. We reviewed the farm records to
                         determine if crop bases were properly reduced from the easement lands
                         and, if they were not, we calculated any improper subsidy payments
                         made to producers. We met with FSA State office officials to verify the
                         accuracy of our calculations.

                   •     Reviewed the issuance and use of cropping rights letters. We reviewed
                         all cropping rights letters issued during the scope of our audit.

                   The audit was performed in accordance with generally accepted government
                   auditing standards.




USDA/OIG-A/50099-11-SF                                                                    Page 19
                                     AUDIT REPORT
Exhibit A – Summary of Monetary Results


   FINDING   RECOMMENDATION
                                   DESCRIPTION            AMOUNT           CATEGORY
   NUMBER        NUMBER
                              In 33 of 53 recorded WRP
                              and EWP easements,
                              improper farm subsidy
      1              2
                              payments were made for                    Questioned Costs,
                              crop bases on easement-                   Recovery
                              encumbered lands.            $1,290,147   Recommended

                              In three of five recorded
                              GRP easements, FSA did
      2              6        not remove crop bases on                  Questioned Costs,
                              easement-encumbered                       Recovery
                              lands.                          $20,818   Recommended

                              FSA improperly made an
                              additional year of farm
      3              9        subsidy payments to two                   Question Costs,
                              landowners based on                       Recovery
                              inconsistent guidance.          $74,972   Recommended


  TOTAL MONETARY RESULTS                                   $1,385,937




USDA/OIG-A/50099-11-SF                                                                Page 20
                                AUDIT REPORT
Exhibit B – Sites Visited

                   ORGANIZATION/ENTITY                        LOCATION

    Commodity Credit Corporation                           Kansas City, MO
    Natural Resource Conservation Service
           National Headquarters                           Washington, D.C.
           California State Office                         Davis, CA

           Field Offices:
             - Yolo                                        Woodland, CA
             - Dixon Resource Conservation District        Dixon, CA
             - Sutter/Yuba                                 Yuba City, CA
             - Colusa                                      Colusa, CA
             - Stanislaus                                  Modesto, CA
             - Tulare                                      Visalia, CA
             - Fresno                                      Fresno, CA
             - Kern                                        Bakersfield, CA

    Farm Service Agency

            National Headquarters                          Washington, D.C.
            California State Offices                       Davis, CA
            County Offices:
             - Yolo                                        Woodland, CA
             - Solano                                      Dixon, CA
             - Sutter/Yuba                                 Yuba City, CA
             - Colusa                                      Colusa, CA
             - Stanislaus                                  Modesto, CA
             - Tulare                                      Visalia, CA
             - Fresno                                      Fresno, CA
             - Kern                                        Bakersfield, CA




USDA/OIG-A/50099-11-SF                                                        Page 21
                                            AUDIT REPORT
Exhibit C – Lack of NRCS Coordination Caused Improper Payments

                                                                                              Improper
                                   Type of                                    Crop Bases
                                                   Easement        Easement                 Farm Subsidy
                                  Easement                                       on
 Landowner         County                          Recorded         Acres                     Payments
                                                                              Easements
NRCS Did Not Ensure FSA County Offices Were Aware of Recorded Easements
      1             Yolo             WRP            10/6/03            83.0        35.2        $2,814
      2             Yolo             WRP            5/5/04          2,608.0     1,640.5      $234,957
      3              Yolo            WRP            11/5/99           85.5         61.2        $9,771
      4              Yolo            WRP            10/8/04          341.9        230.8        $6,112
      5              Yolo            WRP            8/24/05          160.0         86.2        $3,590
      6             Solano           WRP           12/31/02          549.0          3.5         $201
      7             Sutter           WRP            6/20/03          588.0        293.8       $24,063
      8             Sutter           WRP             3/9/05          478.9        390.3       $22,910
     9              Sutter           WRP            5/12/05          551.4        544.4       $57,745
     10             Colusa           WRP             8/8/00          124.6        127.5       $81,084
     11             Colusa           WRP            6/28/02          457.2        219.1       $30,339
     12             Colusa           WRP            7/21/04          104.9        103.5       $34,256
     13             Colusa           WRP            2/13/03           26.7         35.7       $20,183
     14             Colusa           WRP            5/12/04          113.0        102.3       $37,080
     15             Colusa           WRP            9/8/04            55.5         51.9       $18,619
     16            Colusa            EWP            6/27/02          152.3        126.0       $76,467
     17           Stanislaus         EWP            6/23/00          202.5         13.0        $2,710
     18             Tulare           WRP            8/8/00           574.5        250.6       $15,365
     19             Tulare           WRP            4/3/02           290.9        501.2       $49,932
     20             Tulare           WRP            11/5/03          632.3        130.9        $2,557
     21             Tulare           WRP            12/7/04          522.6        653.5       $12,778
     22             Tulare           WRP            8/24/05          633.4        294.7       $38,851
     23             Tulare           WRP            1/31/00         1,534.0       786.8       $93,488
     24             Tulare           WRP           10/14/03          433.9        364.7      $103,857
     25             Tulare           WRP            10/4/01          698.4        567.9       $43,403
     26             Tulare           WRP            10/4/01          160.3        156.6       $48,973
     27             Tulare           WRP            3/2/99           320.0        213.8      $118,680
     28             Tulare           EWP            10/1/01           81.9         64.5        $5,743
     29              Kern            WRP            6/4/01           904.9        540.5       $89,092
     30              Kern            WRP            3/4/03           179.2         31.8         $623
     31              Kern            WRP            2/4/03           167.3         12.0        $2,466
     32             Fresno           WRP            3/13/01           77.8         12.7         $977
     33             Fresno           WRP            8/20/03         1,617.1         1.1         $461
                                                                                Total      $1,290,147




USDA/OIG-A/50099-11-SF                                                                                     Page 22
                                                    AUDIT REPORT
Exhibit D – Improper Payments Due to FSA Errors
                                                                                               Improper
                                                                                Crop Bases
                                     Type of        Easement         Easement                Farm Subsidy
                                                                                   on
  Landowner         County          Easement        Recorded          Acres                    Payments
                                                                                Easements
FSA Did Not Ensure Crop bases Were Properly Removed from Easement Lands
      34              Yolo            GRP            9/29/03           122.0        122.0      $8,472
      35             Colusa           GRP            9/12/03           192.0
                                                                                    143.7     $12,346
      36             Colusa           GRP            9/12/03            109
                                                                                   Total      $20,818
FSA Handbook Improperly Allowed Subsidy Payments on Easement Lands
      37             Colusa           WRP            5/14/02           102.8         84.5     $18,678
      38             Colusa           WRP           12/27/01           301.5        253.4     $56,294
                                                                                   Total      $74,972




USDA/OIG-A/50099-11-SF                                                                                      Page 23
                                                   AUDIT REPORT
Exhibit E – NRCS Response




USDA/OIG-A/50099-11-SF                  Page 24
                         AUDIT REPORT
Exhibit F – FSA Response
                                          Page 1 of 6




USDA/OIG-A/50099-11-SF                     Page 25
                           AUDIT REPORT
Exhibit F – FSA Response
                                          Page 2 of 6




USDA/OIG-A/50099-11-SF                     Page 26
                           AUDIT REPORT
Exhibit F – FSA Response
                                          Page 3 of 6




USDA/OIG-A/50099-11-SF                     Page 27
                           AUDIT REPORT
Exhibit F – FSA Response
                                          Page 4 of 6




USDA/OIG-A/50099-11-SF                     Page 28
                           AUDIT REPORT
Exhibit F – FSA Response
                                          Page 5 of 6




USDA/OIG-A/50099-11-SF                     Page 29
                           AUDIT REPORT
Exhibit F – FSA Response
                                          Page 6 of 6




USDA/OIG-A/50099-11-SF                     Page 30
                           AUDIT REPORT
Glossary of Terms

Crop bases – The historical average number of acres established with respect to a covered commodity
grown on a farm.

Cropping rights letter – The State Conservationist will provide each affected landowner with written
notification of his cropping rights via a cropping rights letter. The letter advises landowners that:
(1) any crops planted before the easement is recorded or the restoration agreement is approved can be
harvested, and (2) they may also plant a crop during the spring following the easement recordation
when the easement is recorded after October 1.

DCP cropland – Land that is currently tilled or has been tilled in a prior year and is suitable for crop
production. Crop bases may only be on DCP cropland acres.

Easement – An interest in a piece of land defined in a deed whereby the landowner conveys all rights,
title, and interest in a property except those rights, title, and interests specifically reserved to the
landowner in the easement deed.

Farm – A farm is made up of tracts that have the same owner and the same operator. However, land
with different owners may be combined if all the land is operated by one producer with all of the
following elements in common and substantially separate from that of any other tracts: labor,
equipment, accounting system, and management.

Farm subsidy payment – A payment made to eligible producers based on established crop bases,
payment yields, and a fixed payment rate with respect to the covered commodity on the farm.

Landowner – An individual or entity who has legal ownership to the land (holds title to the land).

Payment yield – A yield established based on the average or historical (production) yield on the land
used in the calculation of the farm subsidy payment.

Producer – An owner, operator, landlord, tenant, or sharecropper that shares in the risk of producing,
a crop, and is entitled to share in the crop available for marketing from the farm, or would have shared
had the crop been produced.




USDA/OIG-A/50099-11-SF                                                                         Page 31
                                          AUDIT REPORT
Informational copies of this report have been distributed to:

Chief, NRCS, Attn: Director, OMOD                    (10)
Administrator, FSA, Attn: Director, ORAS             (10)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division       (1)
Government Accountability Office                      (2)
Office of Management and Budget                       (1)
